<html>
<title> - BLACK MEN AND BOYS IN THE DISTRICT OF COLUMBIA AND THEIR IMPACT ON THE FUTURE OF THE BLACK FAMILY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
BLACK MEN AND BOYS IN THE DISTRICT OF COLUMBIA AND THEIR IMPACT ON THE 
                       FUTURE OF THE BLACK FAMILY
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 12, 2003

                               __________

                           Serial No. 108-74

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                       U.S. GOVERNMENT PRINTING OFFICE
90-464                     WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 12, 2003...............................     1
Statement of:
    Cummings, Jay R., Ph.D., dean and professor, College of 
      Education, Texas Southern University, and Chair, 
      Demonstration Schools Project, National Alliance of Black 
      School Educators...........................................    51
    Gwathney, Robin, project manager, John J. Heldrich Center for 
      Workforce Development......................................    58
    Mann, Charles, Good Samaritan Foundation, c/o Monk and Mann 
      Ventures...................................................    20
    Quander, Paul A., Jr., Director, Court Services and Offender 
      Supervision Agency [CSOSA].................................    43
    Starke, George, chairman, D.C. Black Men and Boys Commission.    11
    Wilson, William Julius, Ph.D., Kennedy School of Government, 
      Harvard University.........................................    24
Letters, statements, etc., submitted for the record by:
    Cummings, Jay R., Ph.D., dean and professor, College of 
      Education, Texas Southern University, and Chair, 
      Demonstration Schools Project, National Alliance of Black 
      School Educators, prepared statement of....................    54
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Gwathney, Robin, project manager, John J. Heldrich Center for 
      Workforce Development, prepared statement of...............    60
    Mann, Charles, Good Samaritan Foundation, c/o Monk and Mann 
      Ventures, prepared statement of............................    22
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia:
    Letter dated August 29, 2003.................................    81
    Prepared statement of........................................     8
    Quander, Paul A., Jr., Director, Court Services and Offender 
      Supervision Agency [CSOSA], prepared statement of..........    46
    Starke, George, chairman, D.C. Black Men and Boys Commission, 
      prepared statement of......................................    13
    Wilson, William Julius, Ph.D., Kennedy School of Government, 
      Harvard University, prepared statement of..................    26















BLACK MEN AND BOYS IN THE DISTRICT OF COLUMBIA AND THEIR IMPACT ON THE 
                       FUTURE OF THE BLACK FAMILY

                              ----------                              


                       FRIDAY, SEPTEMBER 12, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia and Norton.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Teresa Austin, chief clerk; Brien 
Beattie, deputy clerk; Michael Layman and Shalley Kim, 
legislative assistants; Phil Barnett, minority chief counsel; 
Kristin Amerling and Michael Yeager, minority deputy chief 
counsels; Tony Haywood and Rosalind Parker, minority counsels; 
Earley Green, minority chief clerk; Jean Gosa, minority 
assistant clerk; and Cecelia Morton, minority office manager.
    Chairman Tom Davis. Committee will come back to order. 
Today's hearing is on black men and boys in the District of 
Columbia and their impact on the future of the black family.
    Although we have seen some remarkable progress over the 
past several decades, there remain significant socioeconomic 
gaps between African-Americans and other ethnicities. Our 
hearing today will address matters of particular concern to 
African-American males in the District of Columbia and other 
metropolitan areas.
    The statistics are startling: African-American males are 
seven times more likely to be murdered than their Caucasian 
counterparts. The African-American rate of HIV-AIDS infection 
is five times higher than that of Caucasians. African-Americans 
comprise 38 percent of AIDS cases reported to the U.S. Center 
for Disease Control. The unemployment rate for African-
Americans is at 10.1 percent. These statistics should concern 
us all. I hope our witnesses will be able to shed some light on 
their underlying causes and what the public and private sectors 
can do about it.
    How can we expect African-American males to dream high when 
they are fraught with disappointment, with violence and low 
expectations? Obviously we can't.
    I hope to see increased opportunities for the participation 
of African-Americans in the political process as voters and 
candidates. There are countless African-American men with the 
potential to become leaders of the District of Columbia and 
cities and States across the country, yet too few of them get 
to the point where they can exercise that potential. It is 
important for the community and the government to foster an 
environment in which they can succeed and positively influence 
the course of events pertinent to African-Americans and all of 
us.
    We have to remember that the boys of today will become 
tomorrow's fathers, and so our goal is to identify problems 
affecting African-Americans and build awareness of these 
issues. I applaud the efforts of the Commission and hope 
today's hearing will help the Commission develop an action plan 
that will benefit the African-American community.
    I also want to particularly thank Congresswoman Norton for 
her work with the District of Columbia Commission on Black Men 
and Boys and other issues in the city. She has taken a 
leadership role in this.
    We have a distinguished panel of witnesses before us today 
and I look forward to hearing their testimony. I thank you for 
sharing your experiences and suggestions with us.
    I want to recognize Ms. Norton for an opening statement and 
again thank you for bringing this before us.
    [The prepared statement of Chairman Tom Davis follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you very much, Mr. Chairman. Indeed I 
want to begin by saying how grateful I am to my good friend Tom 
Davis for agreeing to this hearing, for putting his staff to 
work on preparations, and of course, to the majority staff for 
their assistance. My special thanks, as well, to the staff of 
the ranking member, Henry Waxman. Representative Waxman's able 
staff has devoted many hours of splendid expert effort to the 
work of the D.C. Commission on Black Men and Boys and to 
securing a particularly outstanding group of witnesses for 
today's hearing.
    This hearing springs from the ground-breaking efforts of a 
different kind of commission. The D.C. Commission on Black Men 
and Boys consists of African-American men with special 
credibility with black men and boys in the District of 
Columbia. This Commission and its composition and its dedicated 
work have made the point that leadership to resolve the issues 
facing black males must begin with black men themselves. The 
Commission has been ably assisted by an advisory board of eight 
very distinguished experts who have added a wealth of 
invaluable knowledge and assistance to the Commission's work.
    I would like to note the presence of one of the 
commissioners. All of the commissioners, I want to be quick to 
say, have their day jobs and, therefore, have been volunteers 
with the work on the Commission. But one of the commissioners, 
besides the distinguished Chair, Mr. Starke, is here; and I 
would like to ask him--and one of the advisory commissioners is 
here, Mr. Larry Quick--would you stand? And of the advisory 
commissioners, Dr. Mark Turner, would you stand? I appreciate 
very much what you and the other commissioners and advisory 
members have done. Thank you very much.
    A major difference this Commission brings is its action 
orientation. Generally, commissions make their contribution 
through important recommendations but when it comes to black 
men and their relationship to black family life today, it is 
much too late for recommendations. The issues are so urgent 
that they need to be addressed for immediate action by our 
country and city in general and by the African-American 
community in particular.
    I will not rehearse the many problems that need attention. 
The statistics in and of themselves are so unbearable, they 
simply must not be allowed to get any worse; 50 percent of U.S. 
prisoners are black males, although black males are only 6 
percent of the total U.S. population, for example, or the most 
heartbreaking of all, 70 percent of black children are born to 
never-married women, thereby assuring a childhood of poverty 
for many.
    We have been focused on the symptoms of the decline of 
black family life. How to improve poor performance in school or 
to reduce juvenile crime, for example, knowing full well that 
children from intact families are far less likely to have these 
or other problems. We are centered largely on the symptoms, 
because we have not figured out a way to get ahold of one of 
the primary causes, the large and awesome problem of family 
dissolution at its roots.
    This problem is particularly frightening because it is 
global and because of its necessary effects on children. In 
American society, family decline is further along in black 
America, but it is spreading at lightning speed to white and 
Hispanic Americans as well. The Commission is suggesting that 
one important way to get ahold of black family deterioration is 
to take on issues facing black men and boys in work, in 
preparation for work, in pursuit of education, in 
incarceration, in reentry from prison, in juvenile justice and 
in the perils of street life to boys and young men.
    This, of course, is a tall order. However, it is easier 
than dealing only with the devastating consequences to African-
American boys, men, to their families, to the black community 
and to our country. It is easier than sitting and watching a 
generation of attractive, well-educated young African-American 
women who may never marry and have families because comparable 
young black men were diverted as youths into street life, crime 
and prison. It is easier than tackling the worst effects of 
all, the permanent damage to an entire innocent generation of 
black children. And it is easier than seeing the end of the 
African-American community as we have known it, where mothers 
and fathers together have always forged a better life for their 
children, notwithstanding the burdens of racism and 
discrimination.
    An important reason for focusing on black males is that 
family deterioration began with problems that directly affected 
black men in particular. The rapid flight of decent-paying 
manufacturing jobs beginning in the 1960's correlates almost 
exactly with black family decline. Men without jobs do not form 
families. The drug economy, the underground economy and the gun 
economy all moved into African-American communities to replace 
the legitimate jobs of the traditional economy.
    Jobs and education are critical cornerstones. With all the 
rhetoric among government officials about family values, 
government has failed to focus on how decent jobs almost 
automatically lead young men to pursue marriage and family 
life.
    However, the black community cannot depend on macro 
solutions alone because they take time, and time is not on our 
side. Indeed, time has run out. Thus, the Commission is right 
to address its action mandate across the board, and not only to 
government that is responsible for delivering change in a 
democratic society.
    Recognizing what is at stake, the Commission has said it 
will address its action plan to all the sectors that must take 
responsibility for short and long-term solutions, including 
parents and educators, business and labor and community and 
neighborhoods. The Commission will use the very successful 
local hearings it has held, all very well-attended from the 
community of residents in the District, will use its work with 
the Nation's preeminent African-American think tank, the Joint 
Center for Political and Economic Studies, and will use today's 
hearing to prepare its action plan to be presented in a formal 
ceremony to Mayor Tony Williams, City Council Chair Linda 
Cropp, Superintendent Paul Vance, business and labor leaders 
and representatives of community and nonprofit organizations 
for this reason.
    I am especially grateful for today's witnesses. The issues 
before the Commission on Black Men and Boys need the 
thoughtful, problem-solving work associated with each of their 
careers. The testimony our witnesses will offer today is 
critical to the more urgent and concentrated search for answers 
and actions that have eluded the larger society as much as they 
have eluded our city.
    I thank our witnesses for the effort they have put into the 
preparation of their testimony and I very much look forward to 
hearing from each of them today.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Tom Davis. Thank you very much.
    And now we move basically to center stage here. We really 
have an all-star cast in front of us. Our panel is George 
Starke from the D.C. Black Men and Boys Commission; Charles 
Mann from the Good Samaritan Foundation; Dr. William Julius 
Wilson from Harvard University; Paul Quander, the Court 
Services and Offender Supervision Agency; Dr. Jay Cummings from 
Texas Southern University; and Robin Gwathney from Rutgers 
University.
    It is the policy of this committee that all witnesses be 
sworn before your testimony. So if you would rise with me and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Starke, I am going to start with 
you. I had Wes Unsell in this position one time, sworn before 
the committee when he was with the--then the Bullets; and I 
asked him under oath if the Bullets were going to have a 
winning season; and under oath he said, ``Well, I can promise 
you exciting basketball.'' We could have held him in contempt 
that year, but we let it slide.
    But we are happy to have you here and thanks for all your 
work.

 STATEMENT OF GEORGE STARKE, CHAIRMAN, D.C. BLACK MEN AND BOYS 
                           COMMISSION

    Mr. Starke. I am the chairman of the Commission on Black 
Men and Boys in the District of Columbia and also the founder 
of the Excel Institute, which is an academic and technical job 
facility; and we focus specifically on automotive technology. 
As such, and also, obviously, being a black man, I think I am 
qualified to be a witness here. And I was thinking how I was 
going to begin my talk and Congress looks to me to do something 
interesting. And I was thinking just now, when you were 
speaking, Ms. Norton, that my father died about 6 months ago. I 
am 55 years old and the truth is, I miss him every day. And I 
think about the leadership and guidance I got from him that I 
miss today. I am 55, and I am a relatively successful person. I 
have been to Super Bowls, I run companies and institutions. How 
then can we expect an 11-year-old boy to make it?
    You know, with the upshot of the Commission hearings and 
Commission meetings and my experience in the neighborhoods and 
my growing up, what we probably could have figured out without 
any of that is that we have just a tremendous volume of young 
people who didn't do well in school because they didn't go to 
school, because when they were 11 years old, they had no 
father. And the mother would say, ``Go to school.'' They had a 
mother for sure, but the absence of fathers in our 
neighborhoods and for our young people has just been 
devastating. So then what happens, you have people drop out of 
school. And they drop out of school, and at some point they 
need to make money to take their girlfriend to the movies or 
eat; and without any education, they end up in the drug 
business. And then with the drug business comes violence and 
death and probably incarceration if they don't get shot. And 
it's a cycle which we're all well aware of, which I thought you 
have outlined very clearly. The question then is what to do 
about it. What do we do with where we are?
    It's clear that leadership is important on an individual 
level and, therefore, that brings you to mentoring. There's got 
to be a way that we can institute formally some kind of 
mentoring ability for our young people that are leaderless. 
There has to be a way to do that, and that is the finding of 
the Commission.
    And then, of course, there's the question of education and 
jobs. When I retired from football, I went into the automobile 
business and I built a company in Maryland called George Starke 
Ford. One of my biggest difficulties in the automobile industry 
is finding trained technicians. While I was scrambling around 
trying to find trained technicians, I kept reading about 10 
kids shooting another 10 kids in Washington, DC. And my feeling 
at the time, which has been borne out, is that a lot of the 
violence in Washington is job-related. It's not really a crime 
issue. And, you know, to put people in jail just doesn't solve 
the job issue. It's about training.
    So I am 1 of 2,000 car dealerships in Washington. None of 
us can find techs. You have this large, unskilled labor pool in 
Washington. As everybody knows, what I did, I sold my companies 
and I built the Excel Institute. And, in fact, we have a highly 
successful venture for anyone above the age of 16.
    Washington has a literacy issue. You have to address that 
as part of your education, so we are academic for those. If you 
can't read, you can come to us. We'll teach you to read and 
write, and you get your GED; and at the same time, we teach a 
trade that we know has 100 percent placement. Not only is it 
placing 100 percent of the people, but it's a good job. You can 
buy a house, buy a car. Technicians make a lot of money, so 
it's a coupling of the academic and the technical, which allows 
us to do what we do best, which is fill that specific job niche 
in the Washington area.
    You have to be 16 to come to us, as I said earlier. But 
you'd be surprised. We fill--whether you're 16, 17, 20 or 25, 
that need for family leadership is still there. So the Excel 
Institute sort of accidentally became the local parent for a 
lot of our people.
    We have about 150 students. Nobody pays any money. It's a 
2-year program; it's like a junior college. And so I think if--
when we look at the problem in Washington specifically, I think 
the issue of leadership on an individual level, which would be 
mentorship; but at the end of the day, it does come back to 
jobs and the ability to make money and have a family, because 
otherwise you end up in jail.
    And, you know, coming out--Mr. Quander is going to speak to 
this--you have a lot of men coming back to Washington, DC, who 
have been incarcerated and they're coming back the same way 
they left. They had no skills when they left, and they are 
coming back the same way they left.
    So, No. 1, I think on the Federal level we need to consider 
some kind of education program for those guys or gals who are 
incarcerated, so they don't come back the same way they left; 
that they can come back and provide for their families if they 
have one, or not find themselves in a situation that puts them 
back in jail.
    Thank you. That's my initial statement.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Mr. Starke follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Mr. Mann.

STATEMENT OF CHARLES MANN, GOOD SAMARITAN FOUNDATION, c/o MONK 
                       AND MANN VENTURES

    Mr. Mann. First of all----
    Chairman Tom Davis. The green light you have gives you 5 
minutes. After 4 minutes, it turns orange and we try to keep 
statements to 5 minutes.
    It is an important issue, but if you need extra time--thank 
you.
    Mr. Mann. I thought you were taking some of my time.
    Thank you, first, for having me here. I take it very 
seriously--the issue--having lived in this skin and being a 
black man for 42 years. I look at every opportunity as an 
opportunity to further the cause of people, but in this case, 
black men and boys.
    Overcoming obstacles to success, young black men and boys 
need role models. Those role models need to not be on the 
various fields of play. They need to be in the homes; they need 
to be in the classrooms; they need to be in the neighborhoods.
    I'm not talking about a role model such as these athletes. 
And being a former athlete, I understand what that means. I'm 
saying that we need to have fathers and businessmen and people 
like that that give of their time and of their lives to help 
pull up these young people.
    And there I'm talking about all people, not just black 
people. They need to be mentored by men of integrity, people 
with moral character, people with strong spiritual foundations, 
because this is what we are dying of, as you know.
    We look at separation of church and state. We're looking at 
taking God out of everything. That's what this country was 
founded on. The money we spend has In God We Trust. We need to 
get back to having a firm spiritual foundation. And when we ask 
these young black men and boys to turn from something, we have 
to have them turn to something. So we're asking them to turn 
from a life of crime. They've got to have something substantial 
to turn to. Jesus is the rock. That is the foundation that we 
need to perform or encourage these young men and boys to go to. 
And they need to turn to something like that. And Darrell Green 
had a 20-year successful career; Art Monk--some of my heroes, 
all these guys, what makes them different from some of the 
other athletes that you see out there is that these guys are 
grounded and rooted in Jesus Christ as their Lord and Savior. 
That's the difference. They were great football players or 
stars, but it's the moral character or integrity that is found 
in Jesus Christ.
    I just took 2 minutes.
    Chairman Tom Davis. I just told Ms. Norton I will give you 
more time.
    Ms. Norton. And Ms. Norton is very interested in how God 
helps those who help themselves in your program.
    Mr. Mann. Thank you. I appreciate it. You've been a big 
advocate of the Good Samaritan Foundation, and I really 
appreciate that.
    What are some of the particular challenges these boys and 
young men face? First of all, lack of opportunities. I'm not, 
you know, saying anything earth-shattering there, but there's 
lack of opportunities, stereotypes you have. And to this day, 
and I'll change it a little bit, my wife will walk into 
Nordstrom's--I have been married for 19 years to one woman; we 
have three children. But my wife will walk into Nordstrom's 
with some jeans and a tee-shirt on, and she won't be helped. 
She's just looking. She doesn't have the wherewithal to buy, so 
salespeople overlook her.
    Then I'll walk in with her; now they're falling all over 
us. And my wife wonders--well, she doesn't wonder why, she 
knows why. But that's not right, these preconceived notions, 
these stereotypes, you know. Walk up on somebody--me, as a 
black man, walk up on somebody in the evening and say, ``Hi;'' 
or go to my car, and I frighten people. I'm a black man and 
that means that you've got to watch out. It's sad. But I have 
three children who have been born and raised in the suburbs. 
When we go into the inner city, my kids are somewhat frightened 
at times when they see a group of black men and boys--and 
that's in my own family--because of the stereotypes, 
distractions in the community and in the environment.
    These kids, these young black men and boys, grow up with 
death and violence all around them--killings on their doorstep. 
And the peer pressure, yeah, we all know about peer pressure, 
but guess what, we have a different peer pressure. A black man 
isn't supposed to be smart; and he's getting that pressure from 
his other black men and friends, you're not supposed to be real 
smart. ``Why are you working real hard in school? Why are you 
doing that? The man ain't going to give you a job so why are 
you doing it?'' So there's pressure right from them not to 
succeed and be successful.
    How do we prepare these young men for post-secondary 
education and/or entry into the work force? Well, the Good 
Samaritan Foundation does a walk-through of the college 
application process. We teach them how to research their 
schools of interest. We have college fairs and tours. We have 
college mentors come back and talk to these kids and tell them 
about the pitfalls and the struggles that are out there. We 
assist them in finding scholarship opportunities, career 
preparatory workshops, self-assessments to find their interests 
and then find the careers that match those interests.
    We also do cover letter writing and resume writing 
seminars; we do job shadowing. Anytime you have some job 
shadowing opportunities here, we would love to put some of our 
kids to work right here; and we do internships.
    The recommendation I would have is that the government do a 
better job of partnering with groups that want to provide 
training that leads to opportunity, employment opportunities. 
We've got to make ourselves more available. The jobs are here. 
We just need to give these young black men and boys 
opportunities. Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Mann follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Dr. Wilson. Thanks for being with us.

 STATEMENT OF WILLIAM JULIUS WILSON, Ph.D., KENNEDY SCHOOL OF 
                 GOVERNMENT, HARVARD UNIVERSITY

    Mr. Wilson. Congressman Davis, I am pleased to have the 
opportunity to address this committee and I would like to 
congratulate Congresswoman Norton for establishing the 
Commission on Black Men and Boys. I think she is a real 
visionary, and I hope that her efforts represent a major step 
toward addressing a serious domestic problem of social and 
economic decline of African-American males.
    Now, in my presentation, I would like to focus particularly 
on the employment woes of low-skilled black males. And since my 
presentation is restricted to 5 minutes, I will refer you to a 
larger written statement that I have submitted.
    In the last three decades, low-skilled African-American 
males have encountered increasing difficulty gaining access to 
jobs, even menial jobs. And although the employment and wages 
of all low-skilled workers improved during the economic boom 
period of the late 1990's and into 2000, the country is now in 
a jobless recovery following the 2001 recession. Jobless rates, 
especially those in the inner city are on the rise again. The 
ranks of idle, street corner men have swelled since the early 
1970's and include a growing proportion of adult males who 
routinely work in and tolerate low-wage jobs when they are 
available.
    Now, what has caused the deterioration in the employment 
prospects of low-skilled black males? Although blacks continue 
to confront racial barriers in the labor market, many inner-
city African-American workers have been victimized by the 
decreased relative demand for low-skilled labor. The computer 
revolution, that is the spread of new technologies, is 
displacing low-skilled workers and rewarding the more highly 
trained. And the growing internationalization of economic 
activity has increasingly pitted low-skilled workers in the 
United States against low-skilled workers around the world. And 
one of the legacies of historic racism in America is that a 
disproportionate number of African-American workers are 
unskilled. Accordingly, the decreased relative demand for low-
skilled labor has had a greater adverse impact on blacks than 
on whites.
    In addition, over the past several decades, black males 
have been displaced disproportionately from the manufacturing 
sector, a trend that has continued up to today as black males 
have lost more than 300,000 manufacturing jobs since 2001, the 
sharpest manufacturing job loss in percentage terms of any 
ethnic group.
    Today, most of the new jobs for workers with limited 
education and experience are in the service sector, which hires 
relatively more women. The movement of lower-skilled men, 
including black men, into this sector of the economy has been 
slow. For inner-city black male workers, the problems created 
by the decreased relative demand for labor have been aggravated 
by negative employer attitudes. Research reveals that employers 
generally consider inner-city black males to be either 
uneducated, uncooperative, unstable, or dishonest.
    Unfortunately, the negative effects of employer perceptions 
of inner-city black males have been compounded by the 
restructuring of the economy. The increasing shift to service 
industries has resulted in the greater demand for workers who 
can effectively serve and relate to the consumer. Many 
employers feel that unlike women and immigrants who have 
recently expanded the labor pool in the low-wage service 
sector, inner-city black males lack such qualities. 
Consequently, their rejection in the labor market gradually 
grows over time.
    The more these men complain or manifest their job 
dissatisfaction, the less attractive they seem to employers. 
They therefore encounter greater discrimination when they 
search for employment and clash more often with supervisors 
when they are hired. They express feelings of many inner-city 
black males about their jobs and job prospects, reflecting 
their plummeting position in a changing economy.
    Continuing lack of success in the labor market reduces the 
ability of many inner-city fathers to adequately support their 
children, which, in turn, lowers their self-confidence as 
providers and creates antagonistic relationships with the 
mother of their children. Convenient rationalizations shared 
and reinforced by men in these restrictive economic situations 
emerge. They reject the institution of marriage in ways that 
enhance, not diminish their self-esteem. The outcome is the 
failure to meet the societal norms of fatherhood.
    Programs that focus on the cultural problems pertaining to 
fatherhood without confronting the broader and more fundamental 
issues of restricted economic opportunities have limited 
chances to succeed. In my view, the most effective fatherhood 
programs in the inner city will be those that address 
attitudes, norms and behaviors in combination with local and 
national attempts to improve job prospects. Only then will 
fathers have a realistic chance to adequately care for their 
children and envision a better life for themselves.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Wilson follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Mr. Quander, thank you for being with 
us.

STATEMENT OF PAUL A. QUANDER, JR., DIRECTOR, COURT SERVICES AND 
              OFFENDER SUPERVISION AGENCY [CSOSA]

    Mr. Quander. Chairman Davis, Congresswoman Norton, good 
morning. Thank you for the opportunity to speak on this 
important topic, which is of vital interest to me as a third-
generation citizen of the District of Columbia, a father, a 
public servant, and an African-American. My name is Paul 
Quander, and I'm the Director of the Court Services and 
Offender Supervision Agency for the District of Columbia.
    This agency provides community supervision for individuals 
on pretrial detention, probation, parole and supervised 
release. Our mission is to reduce recidivism and to protect the 
public through effective supervision practices. CSOSA, my 
agency, supervises over 20,000 people each year. Almost all of 
them, over 94 percent, are African-American males.
    We cannot speak of the difficulties facing African-American 
men and boys in this city without speaking of the criminal 
justice system; this is particularly true here in the District. 
The Washington Post reported in 1997 that nearly half of the 
city's black men between the ages of 18 and 50 were either 
involved with or being pursued by the criminal justice system. 
Nationally, the rate of involvement is about one-third. The 
District of Columbia, which has by far the highest 
incarceration rate in the country, has an even higher rate of 
incarcerating black men. Among the problems young black men 
face in our city, that is assuredly one of the most 
significant. It is far more likely today that a black male 
student in the District of Columbia public schools will 
graduate to prison rather than graduate from college.
    Most of us here today have heard these statistics before. 
In my former job as an Assistant U.S. Attorney, I contributed 
to them. During my 8 years at the U.S. Attorney's office, I 
prosecuted and successfully convicted many African-American 
defendants who were involved in criminal activities. Although I 
believe that doing the time was a just and logical consequence 
of doing the crime, I know incarceration damaged the lives of 
individuals and the families that these men left behind.
    At CSOSA, I lead a work force of more than 300 Community 
Supervision Officers who work directly with offenders to 
correct the personal and social damage caused by a criminal 
lifestyle. We do that by enforcing strict accountability 
standards and, in the process, effecting behavioral change. Our 
strategy is to combine accountability with opportunity, not 
just to tell the offender that life can be different, but to 
show him how he can create those differences for himself. It 
isn't easy: on average, an offender who reaches our supervision 
has been arrested six times and convicted three. He is very 
likely to have a history of substance abuse and less likely to 
have received any treatment. Chances are about even that he 
completed high school. Even if he did, he has few marketable 
job skills and a poor work history. Sadly, many of our 
offenders have had far too much exposure to a life on the wrong 
side of the law.
    D.C.'s high incarceration rate has often resulted in 
generations of the same members of a family being in prison 
simultaneously. During my tenure as the Deputy Director of the 
District of Columbia Department of Corrections, it was not 
uncommon to have fathers and sons and occasionally even 
grandsons incarcerated in different institutions at the Lorton 
Correctional Complex. Even more common were large numbers of 
Lorton inmates who had grown up together and attended the same 
schools. Over the years, a stint at Lorton became sort of a 
right of passage within some of the city's more economically 
depressed neighborhoods.
    Too many of the District's youth have had no personal 
experience of a man who works every day at Giant Food or the 
post office, pays his bills, takes care of his family and gets 
true satisfaction from simply doing the right thing. Too few of 
these adolescents have had the benefit of a coach, a teacher, a 
minister, or neighbor who touches their lives by example.
    One young man, a participant in our faith-based mentoring 
program, told me recently that he just never had anyone in his 
life to show him the right way. Many of our offenders never 
learned the discipline required to work by holding a summer 
job. They never participated in a youth sports program to 
expose them to leadership, team work, and fair play. Instead, 
they hung out on the streets, their fathers were often absent, 
their mothers overwhelmed, and the public institutions that 
were supposed to look out for their welfare were crippled by 
lack of resources.
    The great scholar of American democracy, Alexis de 
Tocqueville, believed that our society's strength lay in its 
defense not of particular rules but of the individual's right 
to define his own community. Tocqueville wrote, ``A democratic 
country's knowledge of how people combine is the mother of all 
forms of knowledge; on its progress depends that of all 
others.'' each community defines its own norms through the 
groups into which citizens divide themselves--the family, 
congregations, political parties, clubs, etc. The result of 
this free association is not only the individual's investment 
in his community's success, but the community's careful 
nurturing of its individual members. But free association is 
not always positive association. In so many cases, our young 
men see no legitimate role for themselves in the mainstream 
community, have developed their own communities or their own 
antisocial norms or standards of behavior. Membership in these 
clubs is very costly not just to the youth who join them, but 
to all of us. The individual surrenders his hopes, his dreams, 
and often his liberty. He ends up incarcerated or on CSOSA's 
case load. Society pays in fear, mistrust and the social and 
material consequences of crime.
    CSOSA's approach to supervision requires that the offender 
disassociate from a negative community that may have led him 
into trouble. At the same time, we attempt to establish new 
bonds between the offender and positive social institutions. We 
do this in two ways: by enforcing accountability, which reduces 
the risk to reoffend, and by introducing the offender to people 
and institutions who contribute to this city's well-being 
rather than detract from it. Our Community Supervision Officers 
work directly with residents, employers and educational and 
faith institutions, inviting them to embrace the offenders 
among them and give them a hand in rejoining society. It may be 
charity, but it is also good public safety practice.
    The more invested the community is in an individual, the 
more obstacles are going to be put between that individual and 
self-destruction. Many of us grew up in neighborhoods where 
everyone knew whose child we were, and every one of our 
neighbors would tell a parent if they saw us doing something 
wrong. CSOSA's vision isn't that different. Over the past 18 
months we have matched over 100 returning offenders with 
mentors from this city's faith institutions. The mentors are 
often older, retired men and women who want to give of 
themselves. One mentor is a school custodian who has raised 
five children. When he was asked why he chose to become a 
mentor, he answered, ``I guess I know something about helping 
young men avoid prison. All of my boys are doing well. I'd like 
to help a few other boys do well, as well.'' Mentors can 
provide the guidance and tough love many of our offenders have 
never known. They help to develop the empathy that our 
offenders never had. We are grateful to them and for them.
    Criminal supervision is rarely a lifelong relationship. 
Within a few months or a few years, the offender no longer has 
to answer to us. It is our fervent hope that by the time his 
supervision ends, he will have learned that he always has to 
answer to the community. For the most part, CSOSA supervision 
is effective at safeguarding the public. Of all the arrests in 
Washington last year, only about 13 percent involved offenders 
under our supervision. But as you know, most crime is committed 
by individuals known to the system that are not under 
supervision. For that reason, we try to involve the community 
and the offender's success so that accountability remains long 
after we are out of the picture.
    I wish CSOSA supervised only a few hundred individuals, 
because only a few hundred individuals needed supervision. But 
until many things change, the criminal justice system will 
remain too big a part of the lives of this city's black men and 
boys. The very least we can do for them is to recognize that 
unless we connect them to the community, the criminal justice 
system will be the only community that they know.
    Thank you again for the opportunity to appear before you 
and to offer this testimony to you today. Thank you.
    Chairman Tom Davis. Thank you very much as well.
    [The prepared statement of Mr. Quander follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Dr. Cummings, thank you for being with 
us.

   STATEMENT OF JAY R. CUMMINGS, Ph.D., DEAN AND PROFESSOR, 
  COLLEGE OF EDUCATION, TEXAS SOUTHERN UNIVERSITY, AND CHAIR, 
   DEMONSTRATION SCHOOLS PROJECT, NATIONAL ALLIANCE OF BLACK 
                        SCHOOL EDUCATORS

    Mr. Cummings. Good morning, Chairman Davis, Congresswoman 
Norton, and all gathered here. It is a good opportunity and a 
pleasure for me to provide this testimony.
    Before I get into my prepared text I would like to give you 
a little bit of background on why I make these comments. I am 
61; I have six children, four boys; I have two grandchildren; 
one is a male. I am responsible for the policymaking in Texas 
regarding the equity of 600,000 African-American students in 
the public school system, and I have been the president of the 
National Association for State Directors of Career and 
Technical Education. Some of the comments that I make have been 
congealed so I can respond to the time requirements, so I'll 
get to it.
    The complexity of life, especially the conditions 
associated or linked to living with and among poverty in urban 
cities can be overwhelming to youths and adults. These 
conditions are complicated and are expanded by the cycle of 
poverty, discrimination, and limited educational opportunity 
that teach African-American males at a very young age lessons 
about learned hopelessness and learned helplessness.
    Some of these factors are so systemic that they go----
    Ms. Norton. Would you move the mic a little closer, please.
    Mr. Cummings. Some of these factors are so systemic that 
they go unnoticed by the policy and decisionmakers when they 
attempt to address surface manifestations and symptoms of these 
lessons, since the outcry is most often triggered in an event 
or an action that is either unconscionable or unexpected. The 
tendency to create a fast solution often overshadows the need 
to attack the root causes with a more viable, longer-term 
policy practice or solution.
    From the perspective of the author, developed through 
experience, education, and research, the Committee on 
Government Reform, through the Commission on Black Men and 
Boys, must develop effective programs and strategies that 
accommodate four critical factors. These factors, along with 
brief descriptives, are shown in the attachment figure 1, 
entitled ``Success Factors,'' and they are as follows.
    The first factor is preparation. In order for African-
American men and boys to lead productive and wholesome lives, 
they must be the beneficiaries of an educational system that 
features quality teaching, effective schools and meaningful 
community support, all of which are in short supply currently. 
These ingredients should provide the content for the 
development of self-knowledge, cognitive, effective and 
psychomotor skills, as well as spirituality.
    Empowered with these types of knowledge and skills, the 
African-American men and boys are prepared in the processes 
that guarantee excellence, equity and legitimacy. Thus, they 
can realize the transcendent nature of preparation as described 
by Orison Swett Marden, ``The golden opportunity you are 
seeking is in yourself. It is not in your environment, it is 
not in luck or chance or the help of others. It is in yourself 
alone.''
    The second factor is opportunity. In order for African-
American men and boys to take advantage of the options that are 
available in educational institutions and the workplace, they 
must be guaranteed access and supplied with quality academic 
and cultural experiences. Educational and work environments 
must be adaptable to the strengths of a diverse population and 
demonstrate through positive attitudes and behaviors that the 
welcome is genuine and the environment is supportive.
    Norman Vincent Peale's words are instructive for this 
factor, ``Any fact facing us is not as important as our 
attitude toward it, for that determines our success or 
failure.''
    The third factor is participation. In all matters--
socially, educationally, politically, and economically--
African-American men and boys, through policy and practice, 
must be empowered to be actively involved as valued 
participants. It is useful to remember the words of Henry Ford 
at this juncture: ``Coming together is a beginning, keeping 
together is progress, working together is success.''
    The final factor is growth and development. African-
American men and boys must be engaged continuously so that 
individual and collective mastery of educational and cultural, 
as well as societal competencies, are expected and achieved. 
Napoleon Hill's quote seems prophetic for this factor: 
``Strength and growth come only through continuous effort and 
struggle.''
    It is my contention that these brief descriptions of the 
four critical factors and the achievement thereof would prove 
to be the necessary ingredients for an appropriate and 
legitimate response to the effective and successful academic 
and work force education of African-American men and boys. A 
useful example of a promising intervention is the Communities 
in Schools, Houston, Inc., partnership. Through an array of 
services and quality providers focusing on client needs that 
connect to the four critical factors, a sampling of the results 
for 2002-2003 is included; and I worked on the evaluation plan 
for this model.
    Essentially--and I will just excerpt a few things here--
about 3,194 African-American students were served by this 
program. On the case outcomes, they had assessments for 4,398 
that showed their academic behavior and academic performance 
improved, their school social behavior improved 67.62 percent, 
and the attendance rate improved 51.02 percent. 7,077 students 
in this program stayed in school, which was 97.12 percent of 
the total population. 82.10 percent of those who stayed in 
school were promoted, and 17.9 percent were retained; very few 
of them dropped out. Eligible to graduate from this program in 
the first year were 415; 400 graduated, 98.36 percent. Those 
who aspired to post-secondary educational plans were: 104 
planned to apply, 27 were admitted and 170 applied for 
admission and were admitted.
    This is but one example of effective programming that has 
some useful elements for addressing the systemic barriers that 
prevent some African-American males and boys from becoming or 
continuing to be productive, prosperous and proud citizens. 
However, one must be careful not to lose the uniqueness of 
individual African-American men and boys when focusing on the 
collective population. Thus, this testimony encourages the use 
of flexible policies, practices and solutions that can be 
customized according to the specific needs of the African-
American male.
    Just yesterday I visited one of these programs in Detroit. 
Cass Tech High School is lifted up as a possibility for further 
exploration in terms of combining work force and academic 
education at a very high level and opening up opportunities to 
African-American males through a strong partnership with the 
surrounding community. I spoke with a representative from the 
Ford Motor Co. regarding a program they had with the school 
yesterday.
    I have also noticed these strong partnerships in Houston; 
at the Middle College for Technology Careers High School where 
they have a very strong partnership with the community that 
deals with telecommunications and information technology 
throughout the city of Houston. And it just so happens to be 
located on the campus of Texas Southern University.
    And then in Dallas, I looked at Lincoln High School which 
is a magnet school and which has a strong connection to the 
humanities community. And they have been able through this 
partnership to provide the kind of environment that I speak 
about in these factors that allow a limited number--and I 
underscore ``limited number''--of African-American men to gain 
some of these factors that I have isolated in this 
presentation.
    Thank you very much.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Cummings follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Ms. Gwathney, you are the clean-up 
speaker here. Thank you for being with us.

STATEMENT OF ROBIN GWATHNEY, PROJECT MANAGER, JOHN J. HELDRICH 
                CENTER FOR WORKFORCE DEVELOPMENT

    Ms. Gwathney. Good morning, Chairman Davis and 
Congresswoman Norton. I appreciate the opportunity to 
participate in this hearing today.
    I am Robin Gwathney and I am a project manager from the 
John J. Heldrich Center for Workforce Development, which is 
located at the Edward J. Bloustein School of Public Planning 
and Public Policy at Rutgers State University in New Jersey. 
The Heldrich Center is a nonprofit, nonpartisan research and 
policy organization focused on innovative work to strengthen 
the work force development system. My testimony today will 
focus on characteristics of effective One-Stop Centers and 
services for youth.
    As you know, the Workforce Investment Act of 1998 
transformed the work force development system to a customer-
focused system that provides job seekers with centralized 
services delivered through One-Stop Career Centers. WIA is 
supposed to be a major step toward a work force development 
system that merges numerous agencies and nonprofits, government 
and business, education and training programs into an efficient 
and effective system that is capable of providing high-quality 
career development and employment assistance.
    During the act's first full year of implementation, the 
Heldrich Center was asked by the U.S. DOL/ETA, to seek out the 
One-Stop Centers operating on the WIA, seek out those that were 
performing well or maintaining innovative practices, and to 
document the success stories and share that information within 
the work force development system.
    We also participated with the Jobs for the Future 
initiative, similar to the One-Stop Career Center design, but 
focused on youth councils and youth service designs. With the 
One-Stop innovations initiative, we visited 25 sites across the 
country and we gathered information to share with the work 
force development community; and there were several themes or 
major characteristics that surfaced that each, or most, of 
these centers maintain.
    Service integration was key: those centers, that were able 
to integrate services seamlessly and provide one point-of-entry 
contact so that the customer or client walking in was 
indifferent to who was providing services to them, were 
successful. An example of that is Detroit's Workplace, where 
they offer a host of services besides the core services 
required by the mandate. They offer services that include 
residential services; they have a parenting center onsite; they 
have services for child and adult development.
    Another characteristic of a successful One-Stop placed 
emphasis on serving a universal job-seeker and employer 
population, which drove a re-engineering of the entire approach 
to providing work force services. Several areas developed tools 
for providing cutting-edge information and tools to clients. An 
example of this can be found by the Golden Crescent Workforce 
Development Board, which is located in Victoria, TX. They have 
a concierge-like setup where folks are--when clients come in, 
they are provided hands-on assistance throughout the system, 
and pretty much all their problems and issues can be addressed 
at the center.
    In Baltimore, we found Baltimore to be--Baltimore Youth 
Council, actually, to be an example, a great example, of how 
leadership and collaboration work to the benefit of or the 
intent to which it was designed. In Baltimore, they have the 
commitment of the mayor and local CBOs, community-based 
organizations, and other major youth development organizations 
to design and provide a youth service design that has merit or 
provides impact to the youth that it serves.
    One of the characteristics, or notable characteristics, 
that the youth council employs is that to be a part of the 
youth council, you can't miss more than one or two meetings, 
and, if you do, you're asked to vacate your seat. But also, 
those folks participating or agreeing to participate on youth 
council, bring all of the resources kept in the respective 
organizations whole to the table to share with the other folks 
that are participating in the youth council or the youth 
council system.
    So in closing, I would say that there is no one model of 
success for work force development, for One-Stop Centers or 
youth services design; that there is a myriad of various models 
or designs out there; and that our research supports that WIAs 
are a locally-driven program and that the vision of change, is 
impacted by the politics and the local culture and heritage and 
bureaucracy significant to the locale. So, that being said, I 
thank you.
    Chairman Tom Davis. Well, thank you very much. You added an 
important perspective as well.
    [The prepared statement of Ms. Gwathney follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Before we start the questions, Ms. 
Norton, do you want to recognize some visitors we have here 
with us?
    Ms. Norton. Thank you very, very kindly, Mr. Chairman.
    I note that another of the commissioners has come in: Mr. 
Raheem Jenkins, a very active member of the Commission. If he'd 
stand.
    Chairman Tom Davis. Thank you very much for being with us.
    Ms. Norton. And we have some visitors who come at a time 
when--in the real sense he was talking about them, although I'm 
sure they're simply here as part of my D.C. Students in the 
Capitol Program, where I try to get every young person in the 
District of Columbia before they come here to come to the 
Capitol.
    So I'd like to welcome students from the Elsie Whitlow 
Stokes Community Freedom Public Charter School. This is a 
school which has 222 students, 220 students from kindergarten 
then through fifth grade, and now they're about to incorporate 
into the sixth grade.
    And if I might just read what we are discussing here today, 
one part of what their brochure says--and it's called ``Our 
Parents''--parents who choose the Elsie Whitlow Stokes 
Community Freedom Charter School for their children permit 
active involvement in their children's education into helping 
fulfill the mission of the school.
    I want to thank this--the Stokes Freedom Public Charter 
School for your work and our city particularly for that 
ingredient of your program.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Ms. Norton, thank you, you know, Ms. 
Norton and I had a knock-down, drag-out earlier this week on 
the voucher system for the city, but where there are public 
schools, vouchers, whatever, nothing replaces parental 
involvement in kids' education. I think that I hear that coming 
from everybody here today: it starts at home.
    In some cases, unfortunately, you don't have that 
opportunity. I was one of the lucky ones. My father was in and 
out of my life, but I had a very strong mother, and she knew 
that education was critical, and, you know, she looked over me 
to make sure I studied hard, and I could be anything I wanted 
to do, so I was very fortunate.
    We have a lot of single-parent families who are succeeding, 
and we have some with foster parents who are succeeding because 
they are instilling hope in their kids, but we have many who 
aren't, and, of course, even if you have two strong parents, 
nothing assures anything. I know some of the best parents whose 
kids have gone astray. It's tough, but I can imagine being 
African-American in an urban area, when employment prospects 
are bleak, where hope doesn't seem to reign, how difficult that 
is.
    The hardest thing for me, and Ms. Norton and I have had a 
lot of discussions about this, as a white guy from the suburbs, 
I represent the weathiest district in the country, but we're 
just outside of Washington, 10 miles away from some of the 
people here who we don't think--who don't have the same 
opportunities. How do we bridge that gap? Our unemployment rate 
in Fairfax is under 3 percent. Not to say we don't have some 
economic problems; we have tons of immigrants moving in, taking 
jobs, moving up just right across the river. Our kids who come 
out of the womb have the same opportunities. In many cases they 
have the same talents that we have, but they just never 
develop.
    We saw this with the Lorton prison. We were able to close 
Lorton not just because it was in Virginia and my constituents 
didn't like it, but because they weren't getting job training 
and education there, and they were coming out worse than when 
they started. And we put them in a Federal system where they 
can get--in many cases get an education, get their GED, learn a 
trade, and come out and start their lives again. They dig a 
little hole for themselves there, but they can climb out of it 
with appropriate training.
    Again, Ms. Norton and I worked together on this VCES 
scholarship bill that allows D.C. students to pay in-state 
tuition at Virginia and Maryland universities, giving some kind 
of hope that college is at least affordable for them, or more 
affordable than it was before. But public policy is complex; we 
don't always know what works and that's why we had our 
knockdown on vouchers and some other issues that we go with. We 
want the same thing. Each of your testimony touched me, and it 
gives me a little bit of a different perspective because we're 
dealing with kids in an environment that a lot of Members don't 
see every day and, therefore, we don't have to pay attention to 
it as part of our political constituencies. And yet it's right 
here in the Nation's Capital, and it's around the country, and 
it's our future, and we can't have a society in which one side 
is growing and prospering and the other seems to have no 
prospects at all.
    Let me say to the kids from the charter school here, we 
have a very distinguished panel here talking about the current 
situation for black men and boys in the District of Columbia 
and around the country. Two are former Redskins, George Starke 
and Charles Mann are here, and some others are very learned 
professors who are the tops in their field around the country, 
and we're all looking for answers.
    I've got a few questions before I hand it over to Ms. 
Norton. Let me start with Charles Mann. Charles, you talked 
about the role that Jesus Christ has played in your life and in 
other lives, and a lot of athletes, you see it when they score 
a touchdown, or it's a major part of motivating them. Talk 
about the role of the Church and how in some ways that can help 
and in some ways it's fading in urban areas as well. And if you 
could give us a little perspective on that.
    Mr. Mann. I think, first of all, you know, most black 
families are rooted in spirituality, and they--because of slave 
days and that was the only hope we had. Our mothers a lot of 
times were rooted and grounded.
    Let me just side-bar here for a second. I have a brother 
who--I'm from a family of seven. I'm the second to the 
youngest. I have a brother who is incarcerated right here in 
Virginia. He moved from California, that's where I'm originally 
from, and fell on hard times and went right into the system. 
His son is also in the system, in California, so this touches 
me very close, so I know. Yet we had both a mother and a father 
raise us. My father did die of cancer at 46 years old. I was 20 
years old at the time when he passed, but, you know--so 
everything we're talking about today really touches me, and it 
hits right at home.
    And my brother who is incarcerated just moved to a medium-
security prison in--somewhere in the Richmond area, has found 
his way. And prison, if I can say this, has been a good thing 
for him. If he had been outside, he would have been dead. But 
now he has found his way, and he has found it because of 
strategically sending men in there to speak into his life, and 
then we had his undivided attention for the first time, and he 
has found his way because he now loves the Lord.
    And it--those athletes that you see giving it up to the 
Lord and, you know, kneeling and saying a quick prayer, just 
because you say you follow the Lord Jesus Christ doesn't mean--
if you're an apple tree, there's got to be apples on the tree, 
you have to produce fruit. And a lot of people, it's cool right 
now to say you're Christian. It's cool to give it up for the 
Lord and go down on your knee when you score a touchdown. Those 
men aren't necessarily believing and following the same God 
that I am.
    What we need to do and how I've been trained is you first--
once you've made a commitment to the Lord, then you get under 
somebody. Paul had a Timothy in the Bible, and he trained that 
young man, and he developed him. So you need discipleship, and 
that's what the Good Samaritan Foundation is doing with our 
children. We're discipling them. We're growing them up in the 
truth and the knowledge of what Jesus Christ means in their 
lives and how to live out this life, a life where the world 
says you should do it one way, and we're saying, no, the Bible 
says this is the way. And so it's contrary.
    Let me just give a Scripture, and then I'll be quiet. 
Scripture--one of the first scriptures I learned when I came to 
the knowledge of the Lord Jesus Christ was found in Romans 12, 
1 and 2. The King James version says, ``And be not conformed to 
this world, but be transformed by renewing of your mind, that 
you may prove what is a good, acceptable and perfect world of 
God and be not conformed to this world.'' Don't be conformed to 
this world, but be transformed by the renewing of your mind 
that you may prove what is a good, acceptable and perfect world 
of God.
    The world has it saying it one way, and the Lord is saying 
it totally different. A lot of times we need to find our way, 
and if we can find an older gentleman to bring us up, and then, 
as we get brought up, we can find a younger kid for us to bring 
up, then we got something going. And I've got people speaking 
into my life, and I'm speaking into other men's lives, young 
men that I'm trying to train, and that, to me, is so much more 
important than all this other stuff.
    Chairman Tom Davis. The government has a role, but there's 
some things the government can't do.
    Mr. Mann. They can provide opportunities.
    Chairman Tom Davis. That's right.
    Mr. Mann. Provide opportunities. And Joe Gibbs, Joe Gibbs 
was great at this. A lot of people don't know Joe Gibbs loved 
the Lord, and he allowed men to share their faith, and he 
encouraged it, and a lot of times he got in trouble keeping 
Christians on the team longer than he should have. I probably 
got an extra year or two, because he knew it wasn't about 
having the greatest athlete on the team. It wasn't the guy who 
had all the talent. It was men of integrity coming together. 
1991, this Super Bowl ring that I'm wearing, we didn't have the 
greatest team, but we had a lot of guys that played together. 
It wasn't about them. It was about the team. That didn't come 
because they were great athletes. It came because he had a 
bunch of core men that loved the Lord that found a way to work 
in a community.
    Chairman Tom Davis. Ms. Gwathney, let me ask you: you made 
an interesting observation, about the successful program that 
you observed here locally, and one of the things we've wrestled 
with here is, if compassion and dollars could have solved our 
problems, we would have solved them a long time ago. Public 
policy is--what works one place may not work someplace else, 
and a lot of it does depend on leadership, cooperation, a lot 
of things, teamwork, and if you don't get it everywhere, these 
very broad programs we put out, sometimes they lose it as they 
move down and get administered in different areas.
    That's not to say we shouldn't be using Federal resources, 
it's just a question of how can we use them best. Can we get 
them down to the community where they can be used and 
coordinated and evaluated? The Federal system is one where we 
learn by these laboratories of democracy in cities and States 
where they build successful programs. The successful programs 
I've seen are ones that target a school, a community, a family, 
an individual, as opposed to the broad-brush approach which 
doesn't seem to reach the same way. But do you see it the same 
way, or do you have a little bit different view on that?
    Ms. Gwathney. You know, our research, as we're out and 
about, pretty much the leadership is key. There has to be a 
vision and a willingness of folks to come to the table and, as 
the folks in Baltimore say, put your egos at the door, and 
regardless of the program that you represent or the funding 
stream, that you're willing to put or pool your resources to 
achieve the same goal.
    And so we're--there has been success in that instance. 
Folks have done that. They've been able to put aside politics, 
if you will, or--or the need to be right or first and recognize 
that there is an opportunity here for us to do something great, 
to have an impact, and then go about the business of figuring 
out how to do that so that it's a win-win game for everyone as 
opposed to someone gaining more benefit or more notoriety than 
the other.
    Chairman Tom Davis. Dr. Wilson, one thing I've gotten out 
of your testimony is--and I think it's very insightful--the 
decreased demand for low-skill labor. If you don't have an 
education or a skill set, with the way the global economy is 
going today, you're pretty much out of luck, and that puts 
education and job training at a premium, more than anything 
else. From your perspective, what programs work? What could we 
be doing more here that we're not doing now; I mean, toward 
that end?
    Mr. Wilson. One thing I think that's very, very important, 
and I would consider you might think of it as a short-term 
solution, but it might have long-term consequences, positive 
consequences, and that is trying to improve the school-to-work 
transition. I mean, that is a terrible problem. In my larger 
paper I talked about the fact that a lot of black kids in the 
inner city graduate from high school in June. By October a 
small percentage, a fraction of them, actually have jobs, and 
that's related to the problem of school-to-work transition. And 
I think that we should really focus on creating apprenticeship 
programs and internships for these young people in cities like 
Washington, DC, that would facilitate and ease their transition 
into employment.
    Chairman Tom Davis. OK. And the problem now we see is jobs 
moving out of the city; plentiful sometimes in suburban areas, 
or so-called edge cities. We tend to get caught up in egos and 
not jurisdictions, and I think, Ms. Norton, this is a 
tremendous opportunity for our jurisdiction to work closer on 
these kind of issues for opportunities on that.
    Mr. Starke, let me ask you a question. Role models are just 
critical with what you've--you know, in your experience. Can 
you talk a little bit more about that? I think the role model, 
if it's not in the home, you're looking on the street, you can 
look to the media. What can we do to find better role models 
and reach out? I know you've been working on this for some 
time, but you can't do it in the large scale. You almost have 
to do it a little at a time. Can you talk about that?
    Mr. Starke. Well, Charles mentioned it himself. There are 
organizations. You know, the Commission, one of the obligations 
of the Commission on Black Men and Boys was to identify and 
sort of coordinate other programs under one umbrella. You know 
what I do. I do education, technical stuff. It turns out that 
when you look seriously and closely to the neighborhoods, there 
are groups like Charles', and they are meant to ship groups all 
over the city. And so I think that the people are there. I 
think the emotion's there. I don't think the government can 
have a whole lot of impact on this. I don't think that money 
would have helped us; maybe somewhat. It's mostly a community 
thing with the groups and the caring.
    Like I said, I believe they're there. We've run across a 
lot of it as part of our research on the Commission, so we're 
trying to coordinate them and hook them up, when you've got 
guys who are retired on one hand, and they're not sure where to 
go, and a lot of it's coordination. But you're right, Tom, the 
mentoring and the one-on-one stuff happens on a community level 
with small groups and individuals, and that seems to be there. 
You know, it's how you take that love, really, and put it with 
education and technical training and school-to-work and all 
that other stuff.
    Chairman Tom Davis. Thank you. I would just say to Charles 
Mann: my father did serve a couple tours in the prison system 
in Virginia, so I've had acquaintance with that, but I had a 
very strong mother, and that makes all the difference in the 
world. It keeps me straight. In some ways, I think my father 
was a wonderful man, but was a negative role model in terms of 
what you shouldn't become and what you could become if you 
didn't watch things. But I appreciate your testimony and your 
story. I think all of this is very helpful to us. Thank you. 
Ms. Norton.
    Ms. Norton. Well, first, let me comment on the quality of 
the testimony: it's been extraordinary testimony. Each and 
every one of you have provided me with insights or information 
that I certainly did not have before, and I want to begin by 
just thanking you for that.
    I'd like to, perhaps, ask a question, and the first 
question may involve Mr. Starke, Mr. Mann, and Dr. Wilson, 
because, in essence, it seems clear that this is so complicated 
that one has to put together a set of ingredients in order to 
begin to grapple with the complicated issues that are before 
us.
    Dr. Wilson is a world-class researcher. His work in the 
field and his theoretical work is unique in how he has 
uncovered these issues, issues involving black people, but 
especially black men, and his writings have been the best work 
in the field, and we are so pleased that you are able to be 
here. But you have noticed that Dr. Wilson did not confine his 
testimony entirely to jobs, although that is--and I agree with 
him--central to everything. A man without money and without a 
job will find money. Having money to do whatever you want to do 
is associated with manhood in the world and not just in our 
country, so if you don't find it through the legitimate 
economy, we now know you will find it, and we just have to face 
that.
    I appreciate what Mr. Mann said about faith, but he also 
told the truth, that these youngsters come from homes with 
strong faith traditions. That's been the tradition of our 
community, even during slavery, where they embrace the faith of 
slave masters who believed we weren't equal. We are faith-based 
people, and yet these same children coming from homes where 
they have Jesus spoken to them every day are out in the street 
shooting people. So I appreciate what you say about athletes 
getting on their knees. And, of course, we read about some of 
them engaging in sexual abuse, or even taking guns, going in 
the street as if they didn't have millions of dollars in the 
first place. This is very, very complicated, and it does go to 
opportunity, but it also goes to cultural matters.
    Dr. Wilson talked about apprenticeship, school, of work. 
This is an example--and Dr. Cummings' work, these are examples 
of short-term things that can matter. I'm on another committee 
that has to do with Federal construction and renovation in the 
District of Columbia. That's the granddaddy of contractors, and 
I've been able to get the GSA to agree that there will be a 
certified apprenticeship program whenever they build anything 
or renovate anything in the District of Columbia. And what that 
means, for example, is that if you build the Woodrow Wilson 
Bridge, you have to have a certified apprenticeship program so 
that the next time there's a construction job, you can be 
certified as to how much you can do. These are the kind of 
decent-paying jobs that black men used to be able to get, at 
least when we began to integrate the crafts that have not been 
available, because for 25 years now there's not been those 
kinds of federally supported apprenticeship programs.
    I want to ask, initially, Mr. Starke, Mr. Mann, and Dr. 
Wilson about how to penetrate so that we can get toward the 
point where jobs, legitimate jobs, are what the average young 
black men believes he can get and should seek. And before we 
get to schools and the absence of education, which accounts for 
so much of this, Dr. Wilson testified to something that the 
Commission on Black Men and Boys and certainly the people at 
this table--and we begin with what Dr. Starke and Mr. Mann have 
seen firsthand. And he talked about a kind of vicious cycle of 
attitudes where you bring these harsh attitudes out of your 
condition in the ghetto, and then, of course, in the workplace, 
they turn people off, so they know they don't want you there, 
which then turns you off more, and you become further estranged 
from the possibility of work.
    Now, I want to ask whether Mr. Starke in his program, Mr. 
Mann in his program, have found youngsters coming with these 
attitudes and how you break through them. And I want to ask Dr. 
Wilson if he believes that those attitudes are capable of being 
met through programs, whether we have to go to the churches--
but if this is the predicate, the very attitude you bring to a 
job, which is what you need to live, and that attitude almost 
disqualifies you from moving forward into legitimate work, my 
first question is a very hard one, I recognize, but whether 
you've had any experience dealing with that problem, with 
overcoming that problem, and whether you think there's any role 
for any sector to play. That would, I suppose, go to all of 
you, including Dr. Wilson, in dealing with that threshold 
concern.
    Mr. Starke. Let me go first, if you don't mind.
    The attitude problem, of course, like you said, it's a--
nothing is ever simple, but I think that a lot of that attitude 
which turns off the employee is really fear; you know, fear of 
rejection. And so people build their own failure, and we see it 
all the time. And, you know, we have graduates who can do it, 
who are technically capable of getting a good job in the 
automobile business field, and they'll go out and dress like an 
idiot, and you'll bring him back and say, what are you doing? 
You know you can't go in. God doesn't know you from Adam. 
You've graduated from school, you've taken all your tests, 
you've studied like heck, and then you dress like a fool, and 
you get rejected. That's just a person that has fear. He's 
built his failure into that because he's never been successful 
before, and he doesn't realize that he has the tools to do it.
    You know, that's like years ago, you know, people didn't 
want to act white and go to school, and what was--once again, 
how silly is that? That's building in a failure rate. You're 
just afraid. You're afraid because you don't know anybody who's 
been successful, and your own self-esteem is such that you 
don't want to be rejected again, so you build failure in. 
Simply enough, to overcome that, you have to work for us. 
That's a counseling issue and we get that.
    Ms. Norton. But you have found young people entering with 
that, and you've been able to deal with that fear?
    Mr. Starke. We see that every day, but you can deal with 
that.
    Ms. Norton. Or, I suppose, if I might say so, learning what 
few of us know how to do, fix automobiles, may chase a lot of 
fear from you.
    Mr. Starke. Well, sure, you would think it would, and for 
most people it does, but in the back of your mind, however, you 
know, if you've never had--we had a graduation, quickly, a 
couple months ago, and it was something I probably might have 
done. My principal said to me, ``Look, George, a lot of these 
people graduating from your school have never completed 
anything in their whole life before.'' They started and dropped 
out, they started and dropped out, and they don't fundamentally 
believe that they can be successful. You've given them things 
along the way to say, look, you can do this, and we get through 
it. So the logic doesn't--you know, it's disconnected from me. 
I'm thinking of a gal who spent so much time in school, who 
graduated, would automatically feel at equal with other people 
who have worked for us, but that's not necessarily true. That's 
just a counseling issue.
    Mr. Mann. For our program we take kids 14 years to 18, so 
we get a child who comes in as a freshman in high school. 
They've already been told they can't succeed. They've already--
we get them at a tough age, but the first thing they start 
doing with them, and the way we win them over when they come in 
with those attitudes is, we love on them and we love on them a 
lot. We do a lot of fun things. People in the community will 
send us, you know, tickets to Orioles games. We'll take them 
here, take them there. We really act as parents, if you will, 
foster parents, to these kids, and initially they're hard, they 
have hard exteriors, especially the men and the boys, but we 
love one another.
    I brought a group of seniors to my home. They went 
swimming. They hung out. We barbecued and everything. These 
kids are like, ``You are an untouchable. We saw you on TV. You 
did all these great things, and I'm up in your space and your 
house and with your three children and with your wife.'' And so 
we welcome them into our home, we love on them like you 
wouldn't believe, and love, it really works. It really does. 
It's not fake, it's not phony. No cameras, nobody's seeing us 
doing this stuff, but it's important.
    And so we love on these kids like they hadn't been loved on 
before. We tell them they're special, and then we show it in 
our actions, and then all those exteriors start breaking down, 
and then we've got them. And once we've got them--we just 
graduated--we had 22 seniors in our program this year. Sixteen 
of them graduated and went on to 4-year institutions. We had 
the valedictorian of Anacostia High School in our program. He 
turned down a 4-year scholarship to GW. The first time George 
Washington University's ever given a scholarship offer to a kid 
at Anacostia, and Anacostia used to be all white. First time 
ever, this kid got it, he turned it down because he went to 
Stanford. That's what we're producing in our program because 
we're loving on these kids.
    Ms. Norton. Dr. Wilson, as you answer this, I remind you 
that, you know, you are such a truth-teller. You even said in 
your testimony that black men are having difficulty getting 
even menial jobs.
    Mr. Wilson. Yes, because the menial jobs that are available 
tend to be in the service sector and black men are competing 
with the growing number of immigrants and women who have 
entered the labor market, and the employers have the perception 
that these other workers, the immigrants and women, are more 
acceptable than the black men.
    And let me say that this attitude toward black men, I 
think, sort of grew out of the response--the way in which black 
men have responded to the declining employment opportunities 
over time, and as they've become--experienced greater 
joblessness, they've turned to crime, things like this, which 
reinforces this image.
    Let me just say something. I think the attitude problem is 
important, but it has to be put in proper context. If the 
attitude issue was so overwhelming, black men would not respond 
to expanding opportunities. And let's just take the late 1990's 
and the year 2000. The economic boom had an incredible positive 
effect on black men; not only black men, but all low-skilled 
workers. I'm talking about low-skilled workers now.
    Black men were working more. This is based on systematic 
research. In the late 1990's, they were working more. Black men 
ages 16 to 34 were working more, earning higher wages, and 
committing far fewer crimes than in the early 1990's. And 
you're talking--what we're talking about now are not educated 
black men. We're talking about black men with a high school 
education or less, many of them with prison records. They were 
finding jobs because employers were looking for workers instead 
of workers looking for employers. Some employers actually were 
so hard-pressed that they were no longer using the drug test 
because they needed workers, you see.
    So black men do respond to expanding opportunities, and if 
we could have continued that economic boom period for several 
decades, the boom period of the late 1990's, you would have 
seen some remarkable changes in many of these inner-city 
neighborhoods that we're concerned about.
    Having said that, however, it's unlikely that we're going 
to come back to that boom period in the near future, and so the 
question is: Are there programs that would deal with some of 
these attitude problems that grow out of disappointment and--
that would deal with these attitude problems effectively? Yes, 
there are, and there have been such programs, and they have 
also been researched very carefully by organizations like the 
Manpower Demonstration Research Corp. [MDRC]. And I'm talking 
about programs like progress--Project Quest in San Antonio and 
Strive. These programs provide skilled training, hard skills 
and soft skills. And with soft skills you're dealing with this 
attitudinal problem, the way that these young people present 
themselves.
    These programs have proven to be effective, but let me just 
say this: These programs deal with what we call supply side 
matters, not the demand side. The demand side is when you 
create a demand for employment. Supply-side is when you provide 
the education and training for these people. Supply side 
programs are not very effective--I shouldn't--let me rephrase 
that. It's more difficult to have effective supply side 
programs in a dismal economy, you know? People say, ``Well, why 
am I going through this when there are no jobs available?'' So 
I just want to underline that point.
    But, Congresswoman Norton, can I--Congresswoman Norton, may 
I just make one other point that's unrelated to this, but it 
goes back to an earlier point that Chairman Davis or someone 
made, and that is parents, effective parenting and the outcomes 
of children. And when I think about this, the question for me 
is not why some kids make it in these troubled neighborhoods, 
but why so many kids do not make it even when they have 
effective parents.
    It is much easier to be a parent in the suburbs than in the 
inner city, where you have conditions that undermine, not 
reinforce, parenting. I'd like to take some of those parents in 
the suburbs and put them in the inner city and see how 
effective they will be over the long term. And I think it's 
important to recognize that. There are very effective parents 
in the inner city, and some of them are doing a marvelous job, 
but the challenges they face are overwhelming and some of them 
don't succeed even though they are dedicated and committed to 
their children. So I just wanted to underscore that point.
    Ms. Norton. Oh, good. I very much thank you for that point 
because this notion of parents competing with the streets, 
particularly if it's a boy child; difficult for parents to 
compete with the culture on television, all of the things that 
you're supposed to do in order to be one of the guys. But it 
has always seemed to me to be beyond comprehension, 
particularly, how a single mother living in a part of the city 
surrounded by thugs and drugs and guns somehow keeps hold of 
that child. The point you make there about even having two 
parents in that and dealing in that competition is one of the 
great challenges facing our country. Increasingly, middle-class 
parents see it in their own way as well. Appreciate that.
    I think I should move on to Mr. Quander, because we've been 
talking about how attitudes and difficulties are--compound----
    Mr. Mann. Congresswoman?
    Ms. Norton. Yes?
    Mr. Mann. I'm sorry. I need to excuse myself.
    Ms. Norton. We understood that you would have to leave 
early, and we want to thank you for your testimony.
    Chairman Tom Davis. Thank you very much.
    We received a request from staff that you sign a couple 
footballs on the way out.
    Mr. Mann. No problem. No problem.
    Thank you very much for the time.
    Ms. Norton. We appreciate your testimony.
    Chairman Tom Davis. We'll just be here, I think, a few more 
minutes.
    Ms. Norton. You'll have to forgive us for the quid pro quo 
that the chairman here exacts from witnesses.
    Mr. Quander, we're moving on to the figure that I opened 
with, which is not half of our black men in prison, but half of 
those in prison are black men. This is a completely 
incomprehensible and unbearable figure, but it means that in 
every community we're going to get back from prison large 
numbers of black men, and the attitudes that people have that 
have been to prison, that have been under discussion, are well 
known.
    I'd like some discussion with you about your own work, 
because you, of course, have to deal with those attitudes right 
up front. You are dealing in an economy that even--that Dr. 
Wilson is right. I mean, I saw during the late 1990's inmates 
from Lorton get work, and I was amazed at it. But look at this 
economy.
    I want to ask you about your program, just what--just very 
important for people to know. Our inmates are in a Federal 
program. In many ways it is many steps ahead from inmates from 
the District of Columbia, because there is no State system that 
does anything with inmates. But the Federal system does provide 
services: anger management, drug and alcohol rehabilitation, 
job-finding services and halfway houses; the kinds of services 
that inmates in the United States seldom get. So it would seem 
logical to ask you, who has had to deal with the hardest of 
those attitudes, in a service-oriented environment? What has 
been your success when there was a boom economy and what has 
been your success more recently during this downturn in the 
economy? So if you could address those, all of those questions, 
I'd appreciate it.
    Mr. Quander. Certainly. Economics is the key. As you 
indicated earlier, a man needs to have money in his pocket, a 
man needs to provide for his family and for himself, and there 
are many options. He can do it legitimately, or he's going to 
go out in the streets and do it illegally and get back into the 
criminal justice system.
    What we try to do is break down that attitude and try to 
develop in the returning offender some sense of empathy for his 
community and for himself. He has to care about what it is that 
he's doing and about his community. All too often when an 
individual is sentenced, when he is looking at that judge who's 
going to determine his fate, he often mentions his children, 
that he doesn't want to be separated from his children. When he 
comes back to us, we like to remind him of that. Children and 
your family are key to your existence and the key to our 
community.
    One of the things that we have done, Congresswoman Norton, 
is to work with existing resources and programs that are 
already in place. The faith community in the District of 
Columbia is strong and is remarkable. Many faith institutions 
have ongoing programs, church ministries for prison; in other 
words, clothing, food, things of that nature.
    What we have developed is a program where we have 150, I 
believe, faith institutions who have signed on that run the 
gamut from the Nation of Islam, the Church of Scientology to 
the Archdiocese of Washington, DC, who have all come in to join 
a mentoring program so that when that offender comes in, it's 
not only that they see the community supervision officer as a 
parole or probation officer that is talking to him about that 
attitude, but it's a mentor, someone that person may relate to.
    The other thing that we try to do is to try to match up 
other programs; Mr. Starke's program is a prime example. Mr. 
Starke spoke at a forum that was held at GW University earlier 
this year, and he talked about his program, and for a good 
government bureaucrat, he said those magic words: free. So I 
approached him, and in June we enrolled a number of our 
offenders into his project. Not only did we enroll them, but we 
matched mentors with those offenders so that they could have 
that support network, because all too often when an offender is 
back home, it's not a safe environment. As soon as he walks out 
of that door, he's seeing drugs, he's seeing crime, he's seeing 
prostitution, he's seeing all those things that pull him back 
into the criminal justice system. And what we try to do with 
the mentorship program, and we're growing it and trying to get 
it larger, is to provide that offender with not only a 
professional in the role of a CSO, but someone who's out in the 
community who can give support and guidance.
    Many of our offenders, as they were growing up, have never 
seen a mother or a father get up because of an alarm clock. 
They say it's time to get up, we've got to go to work. They 
just don't see it. So when you talk about developing skills and 
talk about soft skills, how do you deal with someone at the job 
place who is your supervisor who you are just not getting along 
with? Do you just turn away and walk away, or do you try to 
deal with it?
    One of the problems we have with people who have been 
incarcerated and coming back in is that there is a high degree 
of frustration very quickly, and we have to work with them and 
with others so that we can sort of remedy that level of 
frustration to keep them in the process; so that we can develop 
those skills, get them through those critical periods and get 
them back up on their feet.
    Ms. Norton. Now, the second part of my question: There were 
some really extraordinary statistics that came forward from 
your program. This was before you came there, but it was during 
the good economy, where, during hearings before this committee, 
your program, precisely because of the services--and the mentor 
services are fine, but you were offering hard-core services, 
the ones I mentioned before, anger management, jobs. You had 
people in halfway houses so you could deal with them. And what 
the Federal Government does is a real model for what it does 
for when people get out of prison.
    All right. That was in a very good economy. The recidivism 
rate was very low. It was a really wonderful set of statistics. 
It showed a government program really working, because the 
Federal Government was putting the money into services to make 
it possible for ex-felons to, in fact, proceed in regular 
society.
    Now we come to a different economy. We've had a job fair 
just in July, and among those who came--and we had almost 
10,000 people come--among those who came were a fair number of 
recently released people from the Federal prisons, and I didn't 
quite know what to say to them. I didn't believe for real that, 
given two people, one who had a record and one that did not, 
that my constituents who had just gotten out of prison would 
rationally seem to the employer the person that should be 
hired. That's what was in my mind. Now, what has been your 
experience, and what do you do about the fact that there's so 
many coming home now when the economy is turned down, 
notwithstanding your services?
    Mr. Quander. It's a tough issue, and in many cases it's a 
dilemma for us. What we try to do is make each of our field 
sites--and we're located in the community. We have seven field 
sites throughout the District of Columbia, so in many cases 
we're accessible, even through Metro or for a walk for our 
offenders. What we're trying to do is provide those skills and 
those trainings that make them attractive to the employer right 
in those field offices, right in those field sites. So what 
we're trying to do, and we've succeeded in certain respects, is 
to have a One-Stop shopping right in our field sites, so when 
they come in, if their reading is deficient, we have learning 
labs that are right there in the site. In some field sites we 
already have vocational development specialists right there on 
board.
    As far as the other services that we are providing men and 
women in the criminal justice system, they have to be 
responsive to our accountability needs, so we have their 
substance abuse testing that's done in that site, and we're 
also offering some groups to deal with the substance abuse, the 
anger management, the family counseling, the things of that 
nature that will help them to make that transition.
    It's an uphill battle because of the right they have to 
compete with others who don't have that criminal justice 
background but at the same time they can bring to the work 
force some experience of real life. They know that they've made 
mistakes. They know where those traps are. Sometimes they can 
offer an employer just what he needs. I've been down and out. 
I've been down that wrong road. I need an opportunity, and 
sometimes there are employers out there, and we are doing I 
think a much better job today in trying to educate employers to 
give our people an opportunity. Because if you give them an 
opportunity, we think we have the structure in place that we 
can sustain it. It is difficult, but those are some of the 
challenges and those are some of the things that we're trying 
to do to assist.
    The other area I need to speak on is the Department of 
Employment Services in the District of Columbia. We are 
actually trying to get them in our location. We've signed a 
memorandum of understanding with them, but there have been 
funding issues for them. So they are really not on board. We 
want them in place so that our people can go right to their 
office. They can pick up the phone and we can start making some 
of these things work.
    Ms. Norton. It's really extraordinary to see how you have 
created One-Stop Centers out of what might not have been that 
in the first place just by being responsive to your constituent 
community.
    I was very impressed with what you said about training. If 
you go out here and look for a job and you can't find one and 
your field office at least is providing some training, you are 
doing the exact equivalent of what a lot of young people are 
doing today. They can't find a job when they get out of college 
or out of high school, so they say I guess I'm going to go out 
and get some more education. So they then go to the local 
community college or to the State college, and they wouldn't 
have done that if in fact the economy was good.
    Let me move on to Dr. Cummings, because I'm very, very 
interested in what you've done and the model that you describe, 
because the success rate was so extraordinary and in this 
notion, also alluded to by Dr. Wilson, about how the schools 
work notion, not one size doesn't fit all. We tell everybody, 
of course, you should try to go to college, but the fact is 
that increasing numbers of people are finding good jobs without 
going to college, some of them in the technical areas.
    But somehow bridging the gap between people who find school 
not relevant to their lives and coming out and being able to 
find a job very much interested me in your testimony, and so 
I'd really like to know how you produce those statistics. What 
was it that led to those good outcomes and led to young people 
staying in school?
    Mr. Cummings. Well, Congresswoman Norton, I think there 
were a number of factors. The first thing, in the Houston area, 
I speak about these compacts, when I'm talking to people, these 
partnerships that are addressing what I think Dr. Wilson was 
talking about, both the supply side and the demand side.
    On the supply side, the communities and school piece that I 
spoke about, which is one of many, had the opportunity to have 
the full endorsement of the greater Houston partnership, which 
is the demand side to a certain extent and so going in they had 
all the resources on the table to make the program successful.
    But a bigger problem with the partnership between the 
demand and the supply side it appears to me to be the attitudes 
of the people in charge, and somebody has to deal with that. 
Because in this work force environment, where the workplace is 
comprised of people that have entitlements because of the 
status quo, somebody has to be able to articulate a need or 
maybe even a demand for them to consider people who are not 
like them, people who should benefit from both the training 
side as well as the opportunity to utilize the training in an 
economic way that enables them to do the things that we've been 
talking about associated with living well and participating in 
the society.
    The notion that I tried to get at with respect to looking 
at some of these places was how did these schools--because I'm 
basically interested in effective schools that serve African-
American youngsters. That is my research agenda. That is what I 
do for the National Alliance Black School Educators. And, in 
looking at the ingredients, what I find is that there is an 
expectation in these schools which feature work force training 
that academic and skill-based training have equal importance 
and that the programs are not programs where you throw somebody 
away because they are going to get into a program that leads to 
a job.
    Ms. Norton. The old-fashioned vocational school.
    Mr. Cummings. That is still there. As a matter of fact, 
some preliminary finding from the study--I think I can share 
those with you. I was on the independent advisory panel for 
that, suggests that people who concentrate in a high school 
training program actually over the course of their life earn 
more. They also take more academic courses because they are in 
high-quality programs, and it demands that you have the kind of 
background that is necessary to be successful. You've got to 
have the mathematics, you've got to have the science, and so 
on.
    Also, it suggests that not only do they have those two 
ingredients, but they see themselves as pursuing postsecondary 
options, which in my mind adds to the ability to meet, in the 
situation like the one I described in Houston, the demands of 
the individuals who have the jobs available and are asking for 
them to have certain skills and certain knowledge. It gives 
them the opportunity to change their ways of recruiting and 
promoting individuals in their places of work.
    It's a very different and a very difficult environment in 
order to get the results when you have individuals who are 
frowned upon just because of the nature of their gender and 
their race and you've got individuals who are in charge who 
have not been sensitized to the need to do something about 
that, that's different than what got them in place.
    Ms. Norton. Well, your testimony is very deep, Dr. 
Cummings. It suggests that many high schools need to be 
reorganized altogether, regardless of who is in charge, that 
the equivalence between one kind of training and another kind 
of education needs to be there, and I'm afraid that's not there 
in most schools. Most schools are known for one kind of 
education, and if you happen to be in that neighborhood and go 
there and that education doesn't suit you, you're out of luck. 
But if that school is reorganized so that children who needed 
different strokes could get them from different folks, it seems 
to me that your research would be most informative. I 
appreciate it.
    Ms. Gwathney, I must tell you that I'm very interested in 
One-Stop, and let me tell you the Department of Labor initially 
funded the work of the Commission on Black Men and Boys, an 
initial $100,000 grant; it was very important. We worked with 
the Joint Center for Political Studies to get started in all of 
this work. What interested the Department of Labor was, of 
course, what they also fund, which are these One-Stop Centers, 
but I'm interested in a different kind of One-Stop Center. It 
may take somewhat from what--from Mr. Quander's testimony.
    The testimony here today has told us, if nothing else, that 
there is no magic bullet, and thus the One-Stop Center has a 
special attraction if you're trying to deal with these issues.
    The Joint Center report--they issued a report in the 
initial phase here--found that it was easier to draw girls and 
women to government programs than to draw men and boys, and if 
you think about it, that won't seem so strange. You know, the 
street culture which is so attractive to men is not found 
exactly on the inside of programs, and one of the things that 
we think programs need to do is to learn how to get out into 
the street to where their constituency is.
    That aside, before you get there, your One-Stop testimony 
is very intriguing to us. For example, the kinds of ``programs 
we don't think black men will come forward to,'' among them are 
programs or habits that are killing the rest of the community 
like HIV/AIDS, that you can have yourself a little HIV/AIDS 
center, and at some point you may in fact get black men to come 
in, particularly if they get desperate enough, but you probably 
won't get them to come in early enough for testing and in other 
ways.
    Our own experience in the District of Columbia is that if 
you have a center which has something that black men want, they 
will come to that center; for example, unemployment benefits, 
jobs or job search. I'd like your advice on whether you believe 
a One-Stop Center which had unemployment benefits, job search, 
job advice but also happened to have in it personnel who would 
deal with parenting, personnel who would deal with health 
issues, mental and psychological health issues, HIV/AIDS, would 
deal with the kinds of issues that face black men and which 
they only face when they become terribly serious. Do you think 
a multipurpose One-Stop Center of that kind would be useful, 
given the testimony you've heard today?
    Ms. Gwathney. Well, in my experience I would say yes, just 
based on our research, which suggests that when you put 
everything in one place, if someone can get everything that 
they need in one place, then there may be services that they 
hadn't thought of or intended to use that make themselves 
available to them at that place. There are places across the 
country where One-Stops have actually incorporated those type 
of services, Detroit being one. There are several in 
Washington--in the Washington area, there are some in 
California and there are some in Texas that incorporate the 
wholistic approach to not just getting a job but the other to-
work issues. If you have health issues, you can't work. If you 
have transportation issues, you can't work, those type of 
things.
    So I would say, yes, to make the center as attractive as 
possible to all customers and to try to provide the types of 
services similar to the big supermarkets that put everything 
that you could possibly think of into supermarkets so you can 
go to that one place and get everything done that you need to 
get done in one visit, as opposed to several stops along the 
way.
    Ms. Norton. Well, your testimony is very important to us as 
we think this matter through, because the Commission--the D.C. 
Commission on Black Men and Boys has shown a deep interest in 
putting the services that black men may not come to get in with 
the services they come to get, and one of the items on the 
action agenda is to go to the Department of Labor and try to 
seek funding from them and perhaps other Federal agencies in 
this way.
    Chairman Davis, who is such a good friend of mine, as he 
says, even when he's wrong on vouchers, that I'm right on 
public schools, this is a truly good friend of the District of 
Columbia. The chairman is working with me now as a Republican 
on getting voting rights--full voting rights, at least in the 
House--to District residents. So when I approached the chairman 
and asked for this hearing, asked him to put it on the agenda, 
it is typical of his extraordinary generosity that he 
unhesitatingly said yes.
    I'm not going to--there are a zillion other questions. He 
has been generous with his time. I'm not going to ask more 
questions.
    We are going to prepare an action agenda, and the staff of 
the Government Reform Committee that's been so helpful to us 
may wish to propound questions to each of you, and I would ask 
that you perhaps be available to answer some of those 
questions.
    I want to leave only with this notion. When the Commission 
had its hearing, Mr. Starke may remember as the Chair that he 
raised the issue at that very first hearing of alternatives to 
sentencing when African-American men were before a judge, and 
he raised it because before us was Judge Reggie Walton, who had 
been the head of the D.C. Superior Court Family Division, had 
just been appointed by President Bush as a U.S. District Judge, 
and at that time we learned that the judges did not have before 
them information about programs such as Mr. Starke's program.
    When dealing with Mr. Quander's dilemma, there is no real 
alternative to keeping people out of incarceration altogether. 
Mandatory minimums which confine black men for non-violent drug 
crimes are completely killing the African-American community. 
As much as we need to deal with the symptoms, we've got to go 
back to that original hearing that Mr. Starke left us with, and 
of course with the whole round of ways to prevent incarceration 
but even at the point when you can catch a young man before he 
goes into prison, up to that very point we have to work to keep 
that from happening. If you come out of jail and you are a 
black man and in addition the word felon is on your forehead, I 
do not know what this society is ultimately going to be able to 
do.
    So your testimony has been most important in that way, and 
I want you to know that, at the bottom, I'm the mother of a son 
who does not pat herself on the back that she raised a good 
son--and he is such a good son. I know good and well that it 
had everything to do with having a mother and a father in the 
house. It had to do with my wonderful mother-in-law, Mrs. 
Norton, who was always there for us, that extended family. I 
know good and well that it didn't even have to do only with the 
fact that this is a very good boy. It had to do with what luck 
was available to him, was available to me and my three sisters 
and is increasingly unavailable to an entire generation of 
African-American families and, especially, men.
    And I'm going to--one of the questions that we're going to 
ask you in writing is going to be perhaps the most difficult of 
all. I will just say it for the record. In whole sections of 
our community, and increasingly in the society at large, 
marriage is going out of style. If you believe that marriage is 
good for children, that is to say, based on the millennia of 
evidence, my question is this: If we let in the African-
American community so much water roll over the hill, with 
people having children without even thinking about marriage, 
particularly young men, young women tend to think about it and 
want it, even if we get to the point where opportunity is 
available, even given the fact that for many young African-
American middle class men opportunity is available, if in fact 
a cultural norm develops of having children without fathers, 
will we build that into the life of the African-American 
community?
    What I'm asking you is, if this becomes an acceptable way 
to have and raise children, at some point will it matter that 
some members of the community in fact have opportunity? Will 
marriage not just be the cultural norm in our community? And if 
that happens, have we not broken faith with more than 200 years 
in this country? Is there a way, even short of finding jobs, to 
make sure that the cultural norm of at least desiring marriage 
with children can remain intact in our community?
    Mr. Chairman, you see that I did you the favor of not 
asking for responses to that, but I had to get it off my mind.
    Chairman Tom Davis. Well, thank you very much.
    Let me thank all our panelists. You have all enriched the 
record and we'll come back and assess it. Maybe there will be a 
legislative outcome as well.
    We appreciate, Ms. Norton, your leadership in putting this 
Commission together and having them come up and give us a 
status report on this. I appreciate the other Commission 
members who didn't testify today for your service on it. I 
think we're making a difference.
    Ms. Norton. Mr. Chairman, could I ask that a letter from 
Benjamin S. Carson, the famous black surgeon at Johns Hopkins 
University, who wrote us concerning this hearing, be admitted 
into the record?
    Chairman Tom Davis. Without objection.
    [The information referred to follows:]



    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. And that the written testimony of all the 
witnesses be accepted into the record.
    Chairman Tom Davis. Thank you. I will do that.
    Ms. Norton. Could I ask unanimous consent to keep the 
record open?
    Chairman Tom Davis. Without objection, so ordered.
    Again, let me thank all of you for taking your time, for 
your service and for testifying here today; and the committee 
stands adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
